U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

August 27, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Richard Balter v. United States of America,
S.Ct. No. 20-217

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 19,
2020, and placed on the docket on August 25, 2020. The government’s response is due on
September 24, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 26, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-0217
BALTER, RICHARD
USA

RICHARD BALTER
PRISONER ID #17432-050
U.S.P. PETERSBURG
P.O. BOX 1000
PETERSBURG, VA 23804

